No. ____________
IN THE

~uprcmc Oiourt of tqc ~nitco ~tatcs
DERRICK ARNOLD JOHNSON,
Petitioner,
v.

RAYBON JOHNSON, WARDEN,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

CUAUHTÉMOC ORTEGA
Federal Public Defender
AJAY V. KUSNOOR
ASHLEY S. MAHMOUDIAN*
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Ashley_Mahmoudian@fd.org
Attorneys for Petitioner
DERRICK ARNOLD JOHNSON
*Counsel of Record

Petitioner, by his undersigned counsel, asks leave to file the attached Petition
for Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
without prepayment of costs and to proceed in forma pauperis. Petitioner was
represented by counsel in the Ninth Circuit under the Criminal Justice Act, 18
U.S.C. § 3006A(b).
This motion is brought pursuant to Rule 39.1 of the Rules of the Supreme
Court of the United States.
Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

DATED: February 26, 2021

By:A~~•
AJAY V. KUSNOOR

Deputy Federal Public Defenders
Attorneys for Petitioner
DERRICK ARNOLD JOHNSON

*Counsel of Record

1

